                                         TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



December 13, 2012

David G. Jolley, WT 2D-K

REQUEST FOR FINAL ACTION – EVALUATION 2012-14506 – REVIEW OF PHYSICAL
ASSAULTS RISK



As part of a series of reviews to evaluate the Tennessee Valley Authority’s (TVA) actions
to address key risks, we evaluated TVA’s physical assaults risk. Physical assaults risk
was identified in the 2011 Enterprise Risk Management Program. The results of our
review are shown in the table below.

                                          Risk: Physical Assaults Risk
       Risk Information                       Mitigations                                 Our Assessment
    Definition: Physical                  A comprehensive physical            The mitigations are generally
    assaults on TVA                        security plan (ongoing).            designed appropriately to address
    employees, visitors, and                                                   the risk. Two of the actions have
    the public on or about                A Security Awareness                been implemented and two have
    TVA property.                          Program (complete).                 not. TVA identified one design gap.
                                          Communication,                      Workplace-violence incidents were
    Probability: Virtually                 infrastructure, and                 not always reported to Security and
    certain.                               equipment (ongoing).                Emergency Management. This
                                                                               prevents TVA from recognizing
    Consequences: Minor.                  Security from Murray                emerging patterns and identifying
                                           Guard Services                      possible training that could lower
    Risk Owner: Vice                       (complete).                         the risk.
    President of Security and
    Emergency Management.

    Recommendation:
    Create a procedure detailing workplace-violence incidents that should be reported to TVA Security
    and Emergency Management along with a uniform way of submitting that information.


TVA management agreed with our findings and recommendation.

BACKGROUND

In 2011, physical assaults risk was identified by TVA’s Enterprise Risk Management1
(ERM) program. According to TVA, ERM is a systematic process to facilitate business
unit identification of risk, consistency in their analysis and communication throughout TVA
1
      The Vice President, Security and Emergency Management, is the risk owner for Physical Assaults.
        WARNING: ThIs document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
         distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
                 is not to be further distributed without prior approval of the Inspector General or his designee.

                                         TVA RESTRICTED INFORMATION
David G. Jolley
Page 2
December 13, 2012



such that a company can determine whether or not the risks should be avoided, accepted,
or mitigated with a risk management plan. TVA also stated that ERM is an ongoing and
evolving process that protects the value of the enterprise and realizes opportunities for the
stakeholders by promoting the efficient and effective management of risk.

Physical assaults risk was one of the sub-risks listed on the July 13, 2011, updated risk
map under the TVA employees Safety Enterprise level risk. The risk covers assaults,
visitors, and the public on or about TVA property. Physical assaults taking place on or
about TVA property could impact TVA’s ability to provide a safe environment for its
employees, its liability to employees, and damage to its reputation. According to TVA’s
risk map,2 physical assaults risk’s probability was “virtually certain,” and the impact of such
risk was considered “minor.”

Since fiscal year (FY) 2011, ERM has evolved, and physical assaults risk has been
replaced with workplace violence as shown in the fourth quarter of the 2011 ERM draft.3
The “Physical Security Performance 2009: Metrics, Benchmarks, and ROI” study
performed by the Institute of Management and Administration stated companies reported
one significant workplace-violence incident per 1,538 employees. TVA’s total population
including contractors is approximately 26,000. Therefore, TVA could be expected to have
as many as 16.9 incidents per year. Workplace violence can be any act of physical
violence, harassment, intimidation, or other threatening, disruptive behavior that occurs at
the work site. The graph below shows as of July 11, 2012, TVA has had 12 workplace-
violence incidents this FY.

                  Number of Workplace Violence Investigations of Incidents
                         Trending October 1, 2011 – July 11, 2012




2
    A risk map is a two-dimensional, graphical tool used to illustrate point estimates of risk.
3
    Each mention of the ERM throughout this report refers to the draft version.
                                     TVA RESTRICTED INFORMATION
David G. Jolley
Page 3
December 13, 2012



According to the Federal Bureau of Investigation, specialists have come to the conclusion
that workplace violence falls into four broad categories:

1. Violent acts by criminals who have no other connection with the workplace but enter to
   commit robbery or another crime.

2. Violence directed at employees by customers, clients, patients, students, inmates, or
   to whomever an organization provides services.

3. Violence against coworkers, supervisors, or managers by a present or former
   employee.

4. Violence committed in the workplace by someone who does not work there but has a
   personal relationship with an employee, e.g., an abusive or domestic partner.

In 2008, the U.S. Bureau of Labor Statistics reported more than two million American
workers experienced some instance of workplace violence each year. Every day there
are an average of 2 people killed and 87 injured as a result of a workplace-violence
incident. The cost to American businesses from workplace violence is estimated at $120
billion a year. The average jury award, in subsequent liability cases where the employer
failed to take proactive, preventative measures under the 1996 Occupational Safety and
Health Administration guidelines, is $3.1 million per person, per incident.

OBJECTIVE, SCOPE, AND METHODOLOGY

As part of a series of reviews designed to evaluate TVA’s actions in addressing key risk,
we initiated an evaluation of TVA’s physical assaults risk. The objective of our review was
to evaluate TVA employee, contractor, and visitor physical assaults risk identifying
opportunities to improve mitigation strategies and assess whether mitigation strategies are
designed appropriately to address the identified risk. The scope of the evaluation included
physical assaults risks identified to date and mitigation plans for those risks. We
considered ongoing activities and efforts to mitigate physical assaults risks conducted in
FYs 2010 and 2011. To achieve our objective, we:

   Identified and reviewed applicable policies related to physical assaults risks.
   Reviewed law enforcement information related to workplace violence.
   Interviewed applicable TVA personnel including risk owners and program managers.

This review was conducted in accordance with the Quality Standards for Inspection and
Evaluation.

FINDINGS

Our review found that TVA has implemented or is implementing actions to reduce the risk
of physical assaults on TVA employees, contractors, and visitors. The mitigations were
generally designed appropriately to address the risk. However, TVA identified that
workplace-violence incidents are not always reported to TVA Security and Emergency

                              TVA RESTRICTED INFORMATION
David G. Jolley
Page 4
December 13, 2012



Management. This prevents TVA from recognizing emerging patterns and identifying
possible training that could lower the risk of similar future incidents.

Physical assaults risk were seen on TVA’s 2010 ERM with a probability of occurrence
rated as “virtually certain” and consequences rated as “minor.”4 Three of the five action
items for TVA’s 2010 mitigation strategy for physical assaults were unapproved and
unfunded; the risk reappeared on TVA’s 2011 ERM. In 2011, TVA developed a mitigation
strategy in order to reduce the risk that included (1) creating a comprehensive physical
security plan, (2) expanding employee education, (3) replacing communication
infrastructure and equipment, and (4) implementing a guard program.

Comprehensive Security Plan
The comprehensive security plan is an ongoing project that includes a risk assessment of
facilities, project planning for mitigation to include budget and a prioritized implementation
plan, and life-cycle replacement plans. Currently, there are five employees assigned to
assess the risk of TVA facilities that will identify gaps in physical security. These
assessments ensure the correct amount of physical security is in place. The project
planning for mitigation and prioritized implementation plan has been completed and is
awaiting budget approval. The life-cycle replacement plan is currently under development
and is expected to be completed in FY 2013.

Expanding Employee Education
TVA also planned to reduce the physical assaults risk by expanding employee education
through the Security Awareness Program. The Security Awareness Program had an initial
completion date of August 31, 2012. However, due to reorganization within TVA, the
completion date was changed to September 2012. TVA successfully reached the
completion-date goal by releasing a new awareness program on September 11, 2012.
According to the Program Manager, Security Awareness and Development, the goal of the
Security Awareness Program is to make people more aware of security and to take
ownership of security. TVA personnel stated that with the completion of the Security
Awareness Program:

    Potential victims may gain knowledge to prevent an incident from occurring.
    Potential victims will know what actions to take in the event an incident does occur.
    People who consider committing a violent act or other crime may refrain because they
     will be aware of the consequences.

Replacing Communication Infrastructure
The replacement of communication infrastructure and equipment was scheduled to be
completed at the end of FY 2013. The replacement of communication infrastructure and
equipment has been rescoped because TVA Police officers are no longer used. However,
the rescoping did not impact the expected completion date. According to TVA personnel,
the implementation of the replacement of communication and infrastructure equipment will
be complete by September 30, 2013. TVA personnel stated communication

4
    The rankings of “virtually certain” and “minor” from the 2011 ERM draft were applied to the 2010 ERM draft
    due to the 2010 ERM axis not being labeled.
                                   TVA RESTRICTED INFORMATION
David G. Jolley
Page 5
December 13, 2012



infrastructure and equipment may not reduce physical assaults, but it will help ensure
there was an efficient response to an assault.

Implementing a Guard Program
In February 2012, TVA announced the end of uniformed patrols. TVA contracted with
Murray Guard Services to provide security. From March 2012 to May 2012, Murray Guard
Services began providing security at TVA facilities. According to TVA personnel, prior to
the implementation of the guard program, there was not any uniformity across TVA plants.
The Vice President, TVA Police and Physical Security,5 stated that by focusing more of
TVA’s non-nuclear security resources on its critical infrastructure, TVA will be in a better
position to address the new and increasingly sophisticated threats facing the energy
industry. Also, TVA’s realignment will better protect its employees and improve security at
its power assets.

In addition to the mitigation plans for physical assaults, TVA has also created a Standard
Program and Process (SPP) entitled Physical Security Standards. The SPP addresses
the physical security standards needed to protect all TVA non-nuclear assets and people.
This SPP also establishes TVA’s physical security standards program that is designed to:

    Deter Threats – Establish a program for determining risk through security surveys,
     needs assessments and risk, and vulnerability assessments.
    Mitigate Vulnerabilities – Establish standards and provide management and oversight
     for the selection, funding, implementation, and use of physical security counter
     measures.
    Minimize Negative Consequences – Prioritize, recommend, and approve all security
     programs.

This procedure shall address the physical security standards needed for protection of TVA
assets, including physical access to cyber assets.

TVA has also identified a way to use tracking information that could possibly prevent
reoccurring or future workplace-violence incidents by delivering training for specific
trending events. TVA personnel stated that TVA is moving toward security awareness
and that the tracking information will translate into safety education. However, according
to TVA personnel, the lack of reporting workplace-violence incidents is impacting the
accuracy of information that reduces the likelihood of identifying trends. Other TVA
personnel stated that because of the different avenues employees have to report
workplace-violence incidents, not all of the information reaches the TVA Security and
Emergency Management.




5
    In its continued effort to improve the quality of service provided to TVA, TVA Police and Physical Security
    became TVA Security and Emergency Management in March, 2012.
                                    TVA RESTRICTED INFORMATION
David G. Jolley
              y
Pag
  ge 6
December 13, 2012



 ECOMMEND
RE      DATIONS

Wee recommend the Vice President,
                           P         Seecurity and EEmergency M  Managemen   nt, create a
pro
  ocedure for individuals who
                           w receive workplace-v
                                       w           violence inciddent reports detailing whhich
workplace-viole
              ence inciden nts should be
                                       e reported too TVA Security and Eme   ergency
Maanagement along
              a      with a uniform wayy of submittin
                                                    ng that information.

TVAA Managem   ment’s Comments – In response to our recomm         mendation, TTVA stated
muultiple reporting options contribute
                            c          to
                                        o the confusioon of what, how, and wh   here to repoort
workplace-viole ence incidennts. To addrress these s hortcomingss Security an   nd Emergency
Maanagement re  evised the Work
                           W      Place Violence
                                         V         SP P in late 201 12, which sta
                                                                                ates all
em
 mployees and   d contractors
                            s are responnsible for nottifying their m
                                                                    manager/sup pervisor
whenever they experience or observe violent, thre   eatening, or o  other disrupttive behavio
                                                                                            ors in
the
  e TVA workp  place. This does
                            d     not ens
                                        sure that repported incide ents reach eiither Securitty
andd Emergency Management or Huma       an Resource  es for properr follow up aand tracking. To
rem
  medy this, Se ecurity and Emergency
                            E            Managemen   nt is working g with Human Resourcess to
devvelop a Workplace Viole ence Incident Report Forrm. See the     e Appendix foor
maanagement’s  s complete reesponse.

Auditor’s Response – The OIG concu
                                 urs with plan
                                             nned and co
                                                       ompleted acttion.

                                -       -       -       -       -

Ple
  ease notify us within one
                          e year from the date of thhis memoran   ndum when final action is
com
  mplete. Infoormation conntained in this report mayy be subjectt to public dissclosure. Pllease
adv           ny sensitive information in this reporrt that you re
  vise us of an                                                  ecommend b  be withheld.

If you
   y have any   y questions or
                             o wish to discuss our o bservations,, please conntact Michae el L.
Lan ne, Auditor, at (423) 785
                            5-4816 or Grreg Stinson, Director, Evvaluations, a
                                                                             at (865) 633--
736 67. We appreciate the courtesy
                            c        andd cooperatio
                                                   on received ffrom your sta aff during the
                                                                                           e
evaaluation.




Robert E. Martin
Ass
  sistant Inspe
              ector Genera
                         al
 (A
  Audits and Evaluations)
              E
ET 3C-K

MLLL:FAJ
cc: Peyton T. Hairston, Jrr., WT 7B-K
    Joseph J. Hoagland, WTW 7C-K
    Tom Kilgore, WT 7B-K K
    Richard W.
             W Moore, ET T 4C-K
    Emily J. Reynolds,
             R         OCCP 1L-NST
    Robert B. Wells, WT 9B-K
                         9
    Andrea L. Williams, WT
                        W 9B-K
    OIG File No:
             N 2012-145   506
                               TVA REST
                                      TRICTED INF
                                                FORMATION
                             APPENDIX
                             Page 1 of 1




TVA RESTRICTED INFORMATION
